Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




 TEXAS DID NOT REFUND EXCESS
     CONTRACTOR PROFITS
     IN ACCORDANCE WITH
    FEDERAL REGULATIONS


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Gloria L. Jarmon
                                                Deputy Inspector General

                                                       August 2012
                                                      A-06-10-00062
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

A Medicaid Management Information System (MMIS) is a system of software and hardware
used to process Medicaid claims and manage information about Medicaid beneficiaries, services,
and providers. An MMIS may be operated by a State agency and/or a fiscal agent, which is a
private contractor hired by the State.

Section 1903(a)(3)(A)(i) of the Social Security Act (the Act) authorizes Federal reimbursement
at an enhanced rate of 90 percent (90-percent rate) for the design, development, or installation of
an MMIS. Section 1903(a)(3)(B) of the Act authorizes Federal reimbursement at an enhanced
rate of 75 percent (75-percent rate) for the operation of an MMIS. Section 1903(a)(7) of the Act
authorizes Federal reimbursement at a standard rate of 50 percent (50-percent rate) for Medicaid
administrative expenditures. The Centers for Medicare & Medicaid Services (CMS) State
Medicaid Manual (the Manual), part 11, identifies the specific types of MMIS expenditures that
are allowable for Federal reimbursement and the reimbursement rates that apply. In addition,
Federal regulations (45 CFR § 95.611) require States to seek prior approval from CMS to claim
Federal reimbursement for MMIS project costs that they estimate will exceed certain thresholds.

States claim MMIS expenditures on the Quarterly Medicaid Statement of Expenditures for the
Medical Assistance Program, Form CMS-64 (CMS-64).

In Texas, the Texas Health and Human Services Commission (State agency) administers the
Medicaid program. The State agency contracts with a fiscal agent, Affiliated Computer
Services/Texas Medicaid Health Partnership (ACS/TMHP), to process claims through the
MMIS.

The contract between the State agency and ACS/TMHP requires a prospective price
redetermination (PPR) audit to establish whether ACS/TMHP earned profit in excess of the
11 percent allowed by the contract.

During the period October 1, 2008, through September 30, 2009, the State agency claimed
MMIS costs totaling $222,809,817 ($145,708,422 Federal share).

OBJECTIVES

Our objectives were to determine whether (1) the State agency refunded excess profits identified
through the PPR audit on the CMS-64 in accordance with Federal regulations, (2) the MMIS
expenditures that the State agency claimed during Federal fiscal year (FY) 2009 were allowable
and claimed at the appropriate reimbursement rate, and (3) the State agency obtained prior
approval for projects in accordance with Federal regulations.




                                                 i
SUMMARY OF FINDINGS

The State agency did not refund $2,634,568 (Federal share) of the $26,689,571 in excess profits
identified through the PPR audit in accordance with Federal requirements. During FY 2009, the
State agency claimed expenditures for 20 MMIS projects with total costs of $71,315,167. All of
these expenditures were allowable and claimed at the appropriate reimbursement rate; however,
the State agency did not obtain prior approval for 2 of the 20 projects. Also, the State agency did
not obtain prior approval for 16 additional projects. The total budgets for the 18 projects for
which the State agency did not obtain prior approval totaled $59,037,385 ($32,884,701 Federal
share).

RECOMMENDATIONS

We recommend that the State agency:

   •   refund to the Federal Government $2,634,568 for excess profits related to the PPR audit,

   •   ensure that prior approval is obtained on future projects as required by Federal
       regulations, and

   •   obtain retroactive approval for the 18 projects that did not have the required prior
       approval from CMS.

STATE AGENCY COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the State agency agreed with our first and third
recommendations and described corrective actions it had taken or planned to take. Regarding
our second recommendation, the State agency said that it has a process, approved by CMS, by
which it seeks CMS approval for (1) MMIS projects totaling $1 million or more for MMIS-
related information technology (IT) and non-IT costs claimed at the 75-percent reimbursement
rate and (2) all projects claimed at the 90-percent reimbursement rate. The State agency’s
comments are included in their entirety as the Appendix.

Federal regulations require that for costs claimed at the 50-percent rate, a State must obtain prior
approval for any contract amendment with cost increases exceeding $1,000,000. For costs
claimed at the 75-percent or 90-percent rate, a State must obtain prior approval for any contract
amendment with increases exceeding $100,000. CMS approved the thresholds the State agency
mentions for the period March 2010 through September 2011, and we have not been provided
any documentation showing that CMS agreed to extend them. Thus, we continue to recommend
that the State agency obtain prior approval on future projects in accordance with Federal
regulations.




                                                 ii
                                                  TABLE OF CONTENTS

                                                                                                                                     Page

INTRODUCTION.......................................................................................................................1

          BACKGROUND ..............................................................................................................1
              Medicaid Program .................................................................................................1
              Medicaid Management Information System .........................................................1
              Texas Medicaid Management Information System ..............................................2

          OBJECTIVES, SCOPE, AND METHODOLOGY ..........................................................2
               Objectives .............................................................................................................2
               Scope .....................................................................................................................2
               Methodology .........................................................................................................3

FINDINGS AND RECOMMENDATIONS .............................................................................4

          EXCESS PROFITS NOT REFUNDED ...........................................................................4

          PROJECTS WITHOUT PRIOR APPROVAL .................................................................5
               Project Costs Exceeding Regular Reimbursement Rate Threshold ......................5
               Project Costs Exceeding Enhanced Reimbursement Rate Threshold. ..................6
               Reason for Not Obtaining Prior Approval ............................................................6

         RECOMMENDATIONS ...................................................................................................6

          STATE AGENCY COMMENTS AND
           OFFICE OF INSPECTOR GENERAL RESPONSE ....................................................6

APPENDIX

          STATE AGENCY COMMENTS




                                                                    iii
                                       INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

Medicaid Management Information System

Section 1903(r)(1) of the Act states that, to receive Federal funding for the use of automated data
systems in administration of the Medicaid program, the State must have a mechanized claims
processing and information retrieval system that meets the requirements of the Act. The CMS
State Medicaid Manual (the Manual), part 11, section 11100(O), states that, for Medicaid
purposes, the mechanized system is the Medicaid Management Information System (MMIS). An
MMIS is a system of software and hardware used to process Medicaid claims and manage
information about Medicaid beneficiaries, services, and providers.

Section 1903(a)(3)(A)(i) of the Act authorizes Federal reimbursement at an enhanced rate of
90 percent (90-percent rate) for the design, development, or installation of an MMIS.
Section 1903(a)(3)(B) of the Act authorizes Federal reimbursement at an enhanced rate of
75 percent (75-percent rate) for the operation of an MMIS. Section 1903(a)(7) of the Act
authorizes Federal reimbursement at a standard rate of 50 percent (50-percent rate) for Medicaid
administrative expenditures. Part 11 of the Manual identifies the specific types of MMIS
expenditures that are allowable for Federal reimbursement and the reimbursement rates that
apply.

Federal regulations require States to seek prior approval from CMS to claim Federal
reimbursement for MMIS project costs that they estimate will exceed certain thresholds. Under
45 CFR § 95.611(b), for costs claimed at the 50-percent rate, a State must obtain prior approval
for any contract amendment with cost increases exceeding $1,000,000. For costs claimed at the
75-percent or 90-percent rate, a State must obtain prior approval for any contract amendment
with increases exceeding $100,000. MMIS projects include designing, developing, and
operating the MMIS system.

States claim MMIS expenditures on the Quarterly Medicaid Statement of Expenditures for the
Medical Assistance Program, Form CMS-64 (CMS-64).




                                                1
Texas Medicaid Management Information System

In Texas, the Texas Health and Human Services Commission (State agency) administers the
Medicaid program. The State agency contracts with a fiscal agent, Affiliated Computer
Services/Texas Medicaid Health Partnership (ACS/TMHP), to process claims through the
MMIS. ACS/TMHP contracts with Accenture to perform the technical tasks (e.g., software
building, testing, and support) included in the MMIS contract and assorted projects.

The contract between the State agency and ACS/TMHP requires a prospective price
redetermination (PPR) audit to establish whether ACS/TMHP earned profit in excess of the
11 percent allowed by the contract. Clifton Gunderson, LLP, conducted the PPR audits covered
in our review.

The 4-year base contract between the State agency and ACS/TMHP, which covered the period
January 1, 2004, through August 31, 2007, required that the PPR audit be performed
(1) following the first full year after the operational start date (covering the contract’s first year,
calendar year 2004) and (2) during the first extension of the original contract (covering the last
year of the contract’s base period, State fiscal year (FY) ended August 31, 2007). According to
the contract, if ACS/TMHP earned profits of 20 percent or more during the first year of the
contract, the State agency would reduce ACS/TMHP’s administrative fees during the remaining
3 years of the contract. If ACS/TMHP earned profits of 20 percent or more during the last year
of the base period, the State agency would reduce ACS/TMHP’s administrative fees in each
additional extension year (September 1, 2007, through August 31, 2009) by an amount sufficient
to reduce profit to 11 percent.

OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

Our objectives were to determine whether (1) the State agency refunded excess profits identified
through the PPR audit on the CMS-64 in accordance with Federal regulations, (2) the MMIS
expenditures that the State agency claimed during Federal FY 2009 were allowable and claimed
at the appropriate reimbursement rate, and (3) the State agency obtained prior approval for
projects in accordance with Federal regulations.

Scope

For the period October 1, 2007, through September 30, 2009 (the dates corresponding to the PPR
audit adjustment period), ACS/TMHP identified $336,510,702 in MMIS expenditures, including
$26,689,571 in excess profits identified through the Clifton Gunderson PPR audit, which we
reviewed.

For the period October 1, 2008, through September 30, 2009, the State agency claimed MMIS
expenditures totaling $222,809,817 ($145,708,422 Federal share), which included expenditures
for 42 projects. We reviewed a judgmental sample of 20 projects, which had total costs of
$71,315,167, to determine whether those costs were allowable and claimed at the appropriate
reimbursement rate and whether the State agency received prior approval for the projects. In


                                                   2
addition to the 20 sampled projects, we reviewed 16 projects with total costs of $50,423,047
($27,272,716 Federal share) to determine whether the State agency had received prior approval.
For these 16 projects, we did not review the allowability of the expenditures or whether the State
agency claimed them at the appropriate reimbursement rate. 1

We did not perform a detailed review of the State agency’s internal controls. We limited our
review to obtaining an understanding of the procedures used to (1) receive, review, and process
claims for reimbursement; (2) calculate and claim the Federal share of MMIS expenditures; and
(3) obtain prior approval for MMIS projects.

We performed our fieldwork from June 2010 through June 2011 at the State agency and
ACS/TMHP, both in Austin, Texas.

Methodology

To accomplish our objectives, we:

     •   reviewed applicable Federal and State requirements;

     •   reviewed the State agency’s policies, procedures, and cost reimbursement guidance for
         ensuring that MMIS expenditures were allowable, equitably allocated, and claimed at the
         correct Federal reimbursement rate;

     •   interviewed ACS/TMHP officials to gain an understanding of their process for
         submitting MMIS expenditures to the State agency for reimbursement;

     •   interviewed State agency officials to gain an understanding of the State agency’s
         policies, procedures, and controls related to calculating and claiming MMIS
         expenditures for Federal reimbursement;

     •   reviewed the State agency’s contract with ACS/TMHP;

     •   identified State agency funding requests that CMS had approved and for which funds
         had been expended during our audit period;

     •   determined whether the State agency had received prior approval from CMS for all
         projects that exceeded cost thresholds;

     •   reconciled to supporting schedules the MMIS expenditures that the State agency claimed
         on the CMS-64s;

     •   reviewed a judgmental sample of the MMIS expenditures that the State agency claimed
         on the CMS-64s and traced the expenditures to invoices, payroll records, and other
         supporting documentation;

1
 The State agency claimed expenditures for the remaining 6 of the 42 projects at the 50-percent rate, and total costs
did not exceed $1 million; therefore, the six projects did not require prior approval.


                                                          3
    •   consulted with CMS officials on the allowability of the expenditures reviewed;

    •   reviewed the Clifton Gunderson PPR audit to determine whether the State agency had
        refunded excess profits due CMS; and

    •   reviewed the MMIS expenditures claimed on the CMS-64 reports during the PPR audit
        period, October 1, 2007, through September 30, 2009, to determine the percentage of
        costs claimed at each reimbursement rate.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                          FINDINGS AND RECOMMENDATIONS

The State agency did not refund $2,634,568 (Federal share) of the $26,689,571 in excess profits
identified through the PPR audit in accordance with Federal requirements. During FY 2009, the
State agency claimed expenditures for 20 MMIS projects with total costs of $71,315,167. All of
these expenditures were allowable and claimed at the appropriate reimbursement rate; however,
the State agency did not obtain prior approval for 2 of the 20 projects. Also, the State agency did
not obtain prior approval for 16 additional projects. The budgets for the 18 projects for which
the State agency did not obtain prior approval totaled $59,037,385 ($32,884,701 Federal share).

EXCESS PROFITS NOT REFUNDED

Regulations (42 CFR part 433, subpart F) set forth requirements for refunding the Federal share
of Medicaid overpayments. Under the basic rule at § 433.312(a), a Medicaid agency has 60 days
from the date of discovery of an overpayment to a provider (not resulting from fraud) to recover
or attempt to recover the overpayment before the Federal share must be returned to CMS.

The State agency did not refund $2,634,568 of the $26,689,571 in excess profits that it recovered
from ACS/TMHP. On August 31, 2009, ACS/TMHP refunded $18,114,549 to the State agency.
ACS/TMHP refunded the remaining $8,575,022 of the total excess profits by reducing the
administrative fees it billed the State agency for State FY 2010.

The State agency did not refund to CMS $2,634,568 (Federal share) of excess profits because it
made errors in calculating the Federal share of those profits. To calculate the Federal share of
the total excess profits, the State agency (1) determined what portion of the total MMIS
expenditures claimed on the quarterly CMS-64s for the period October 1, 2007, through
September 30, 2009 (the dates corresponding to the PPR audit adjustment period), was claimed
at each reimbursement rate; (2) broke down the $26,689,571 in excess profits into the same




                                                4
proportional amounts as the total MMIS expenditures; 2 and (3) multiplied those amounts by the
appropriate reimbursement rate (see table below).

     Reimbursement Rates Applied to Affiliated Computer Services/Texas Medicaid Health
       Partnership (ACS/TMHP) Expenditures and Excessive Profits for 2008 and 2009

                                                  Rate Applied                                         Total
                                      50 Percent   75 Percent                90 Percent
MMIS expenditures                    $149,186,638 $171,932,813               $15,391,251          $336,510,702
Percentage of total                    44.33%        51.09%                    4.57%                 99.99% 3
Total excess profit                                                                                $26,689,571
Less Accenture salaries                                    $4,625,490                              $22,064,081
Excess profit by
reimbursement rate                     $9,781,757         $11,273,162         $1,009,162           $22,064,081
Federal share of
excess profit                          $4,890,879         $11,923,989           $908,246           $17,723,114
Excess profit amount
refunded to CMS                        $9,742,791          $5,345,754                              $15,088,545
Excess profit amount
still owed                                                                                          $2,634,568

The State agency refunded to CMS a total of $15,088,545 ($9,742,791 based on the 50-percent
rate and $5,345,754 based on the 75-percent rate). However, the State agency (1) did not include
excess profits related to the 90-percent rate in its calculations and (2) did not apply the
50-percent and 75-percent rates to the individual MMIS expenditures that were reported on the
CMS-64s. As a result, the State agency still owes CMS $2,634,568 (Federal share) of excess
profits.

PROJECTS WITHOUT PRIOR APPROVAL

The State agency claimed expenditures for 18 projects with budgets that totaled $59,037,385.
Because the State agency did not obtain CMS’s prior approval for contract amendments with
cost increases that exceeded threshold amounts, the State agency should not have claimed these
costs.

Project Costs Exceeding Regular Reimbursement Rate Threshold

Regulations (45 CFR § 95.611(b)(1)(iv)) state that prior approval is required for contract
amendments that involve acquiring equipment or services with proposed Federal funding at the
50-percent rate when the State anticipates that the amendment will increase the Federal and State

2
  Because the $4,625,490 in Accenture salaries could be tied to the 75-percent rate, the State agency subtracted the
salaries from the $26,689,571 in total excess profits before the rate was applied. The $4,625,490 was then included
in the amount reimbursed at 75 percent.
3
    The percentages do not equal 100 percent because of rounding.



                                                          5
share of contract costs by $1 million or more. We identified six projects for which the State
agency budgeted more than $1 million for contract amendments but did not request approval
before the projects began. These six projects had a combined total budget of $38,428,582.

Project Costs Exceeding Enhanced Reimbursement Rate Threshold

Regulations (45 CFR § 95.611(b)(2)(iv)) state that prior approval is required for contract
amendments that involve acquiring equipment or services with proposed Federal funding at the
75-percent or 90-percent rate when the State anticipates that the amendment will increase the
Federal and State share of contract costs by $100,000 or more. We identified 12 projects for
which the State agency budgeted more than $100,000 but did not request approval before the
projects began. These 12 projects had a combined total budget of $20,608,803.

Reason for Not Obtaining Prior Approval

According to State agency officials, the State agency did not obtain prior approval from CMS for
these project costs because the State agency misinterpreted the prior-approval requirements.
Specifically, State officials believed that prior approval was needed only if the technology costs
of the projects exceeded $1 million.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund to the Federal Government $2,634,568 for excess profits related to the PPR audit,

   •   ensure that prior approval is obtained on future projects as required by Federal
       regulations, and

   •   obtain retroactive approval for the 18 projects that did not have the required prior
       approval from CMS.

STATE AGENCY COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the State agency agreed with our first and third
recommendations and described corrective actions it had taken or planned to take. Regarding
our second recommendation, the State agency said that it has a process, approved by CMS, by
which it seeks CMS approval for (1) MMIS projects totaling $1 million or more for MMIS-
related information technology (IT) and non-IT costs claimed at the 75-percent reimbursement
rate and (2) all projects claimed at the 90-percent reimbursement rate. The State agency’s
comments are included in their entirety as the Appendix.

Federal regulations require that for costs claimed at the 50-percent rate, a State must obtain prior
approval for any contract amendment with cost increases exceeding $1,000,000. For costs
claimed at the 75-percent or 90-percent rate, a State must obtain prior approval for any contract
amendment with increases exceeding $100,000. CMS approved the thresholds the State agency


                                                 6
mentions for the period March 2010 through September 2011, and we have not been provided
any documentation showing that CMS agreed to extend them. Thus, we continue to recommend
that the State agency obtain prior approval on future projects in accordance with Federal
regulations.




                                            7
APPENDIX
                                                                                                                 Page 1 of3


                  APPENDIX: STATE AGENCY COMMENTS




                  TEXAS HEALTH AND H UMAN SERVIC ES COMMISSION



                                                                                                 TIIOMA S 11.'1. SUEHS
                                                                                               EXJ:X'lJHV£ Cm!M1SSIONER




                                               May 18,2012




Ms. Patricia Wheeler
Regional Inspector General for Audit Services
Olliee of Inspector General, Office of Audit Services
1100 Commerce, Room 632
Dallas. Texas 75242

Reference Report Number A-06-10-00062

Dear Ms. Wheeler:

The Texas Health and Human Services Commission (HHSC) received a draft audi t report
e ntitled 'Texas Did Not Report Exccss Contractor Profits in Accordance With Federal
Regulations" from the Department of Health and I-Iuman Services Offi ee of Inspector General
(D HH S-O [G). The cover letter. dated April 18,2012, req uested HHSC provide written
commems, including the stalU$ or actions taken or planned in response to the report
recommendations.

The report identified recommendations nx nnsc to consider regarding refunding the federal
share of excess protits earned by the Medicaid claims administrator and strengthening the Center
for Medicare and Medicaid Services approval process fiJI' Medicaid 'Management lnj~mnatjon
Systems expenditures,

This management response includes comments related to the recommendations and details
related to actionsHI--ISC has completed or planned . Responses to the audit n.'commcndations
follow,

))HHS-OIG R ecommendation:

We recommend thallhe Slate agency l'ejllJ1d (0 the Pederal Government S2,634.568jor excess
profits related 10 'he 1'1'11 audit.




 P,O .Box1324'7   .   Austin,Tex<l,5787 11 ·   4900 North LanldL A.llstin, Texa$   78751   .   (51.2)424·6500
                                                                                                         Page 2 of3




Ms. PatTiei. Wheeler
May 18,2012
Page 2


        Actions Planned: 


        HHSC will make an adjustm ent in the third quarter CMS-64 to refund $2,634.568. 


        Estimated Completion Date: 


        June 2012 


        Title of Responsible Person: 


        Jenniler Stansbury. Di recto r - Medicaid/CHIP Contract Management ruld Operations 


DHflS-OIG Recommendation:

rVe recommend that the Stale agem :v ensure that prior approval;s obtained oJ1ful'ure projects as
required by Federal regulations.

HHSC Management Response

HHSC has had a process in place since March 201 () to ensure that it seeks CMS approval for all
MMIS projects exceeding cen ai ll thresho lds. Following this process, which was approved by
CMS, HHSC seeks CMS approval lo r (a) MM IS projecLs totaling $ 1 million or more fo r MMIS­
related IT and non-IT costs claimed at a 75 percent reimbursement rate and (b) all projects
claimed at a 90 percent reimbursement rate. The $1 million thresho ld is appl ied individuall y to
the cost of the ori gin al cont ract an d to any contract amendment that exceeds $ 1 mill ion (not the
origi nal contract cost fo r the project plus the contract amendment).

DHHS-OIG Recommendation :

rVe recommend that the Slate agency obltJin retroactive approl'alfiH the 18 prqiects thaI did not
have the required prior approval/rom CAlS'.

HHSC Management Respon se

       Actions Plann('d:

       CvlS has approved 5 of the 18 projects noted in this findi ng that were not submitted for
       CMS approval prior to March 20 J O. HHSC will seek resolution wid, eMS fo r Ihe
       remaining 13 projects. a nd request retroactive approval from e MS for any MMIS
       projects that meet u1e lhres hold .

       Estimated Completion Dat.e:
                                                                                                  Page 3 of3




Ms. Patrie-ia Wheeler
May 18,2012
Page 3


       Title of Responsible Person:

       Jim Macek, Director - Enterprise Applications

If you have any questions or require addilional information, please contact David M. Griffith,
HHSC Internal A udit Director. Mr. Griffith ma y be reached by te lephone at (5 12) 424-6998 or
bye-mail at I)avig_~.r!liJ!Ith@hhs~;.:.stat~~nU!~.

Sincerely.

  r{~t~6~
Thomas M. Suchs
